Case: 20-1404

Document: 21-2

Filed: 04/01/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-1404
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: CITY OF DETROIT, MI,
Debtor.
EDITH WOODBERRY,
Appellant,
v.

)
)
)
)
)

)
)
)
)

FILED

Apr 01,2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)

CITY OF DETROIT, MI,
Appellee.

)
)
)

ORDER
Before: MOORE, GIBBONS, and MURPHY, Circuit Judges.
Edith Woodberry, a pro se Michigan resident, appeals the district court’s March 13, 2020,
order denying her motion “to review in total and reconcile conflicting orders” in connection with
an appeal from the United States Bankruptcy Court. This case has been referred to a panel of the
court that, upon examination, unanimously agrees that oral argument is not needed. See Fed. R.
App. P. 34(a).
In 2005, the City of Detroit commenced a condemnation action against real property
located at 2457 Beaubien Street, and Woodberry was joined as a defendant. On April 28, 2009, a
judgment was entered in the Wayne County Circuit Court awarding the defendants in the
condemnation action $240,000; subtracted from that award was $83,294.72, which had been
previously paid to Woodberry in another case regarding the Beaubien Street property. The
judgment in the condemnation action stated that it was “with prejudice to any further assertion of

(2 of 5)

Case: 20-1404

Document: 21-2

Filed: 04/01/2021

(3 of 5)

Page: 2

No. 20-1404
-2claims by Defendants against the City arising directly or indirectly .. . from the taking of the
Subject Property.”
In 2013, the city filed Chapter 9 bankruptcy proceedings. In February 2014, Woodberry
filed a claim (Claim #2846) alleging that the city took by eminent domain an eighteen-unit
apartment building she owned and that she was not afforded just compensation. She alleged that
she was owed three million dollars for the value of the property, which was located at 2457
Beaubien Street. The city objected to the claim, arguing that the property in question had been the
subject of a previous condemnation proceeding, the city had provided compensation to the
claimants, and there was no further liability. Woodberry argued, however, that she had not had an
opportunity to appeal the April 28, 2009, judgment awarding compensation because it was not a
final order.
On May 23, 2018, the bankruptcy court entered an order sustaining the city’s objection to
Woodberry’s claim. The bankruptcy court also set a deadline of June 22, 2018, for Woodberry
and the other named claimants to take “appropriate action to reactivate the lawsuit in the Wayne
County Circuit Court.” Instead, Woodberry filed a “response” that the bankruptcy court construed
as a motion for reconsideration and denied on July 11, 2018. On July 12, 2018, the bankruptcy
court granted the city’s request that her claim be expunged and disallowed.
Woodberry appealed to the district court the July 11, 2018, order denying her motion for
reconsideration, and the July 12, 2018, order expunging and disallowing her claim.

On

December 4, 2018, the district court entered an order affirming the bankruptcy court’s orders.
Woodberry did not appeal, but two days later, she filed a pleading titled “Reply Brief,”
stating that it “replace[d] the unfinished working papers [she] inadvertently mailed to the court.”
She subsequently filed a motion for the district court to consider her reply brief. The district court
granted that motion on January 16, 2019.
More than a year later, Woodberry then filed a “Motion for Hearing Date on her Reply
Brief,” which the district court denied on the basis that the case was closed. Woodberry filed a
motion for reconsideration, which the district court also denied.
On March 11, 2020, Woodberry filed the “Motion to Review in Total and Reconcile
Conflicting Orders” that is at issue in this appeal. Woodberry argued that her appeal had not been
dismissed or closed by written order and requested that her reply brief be assigned a hearing date.

Case: 20-1404

Document: 21-2

Filed: 04/01/2021

Page: 3

No. 20-1404
-3 The district court denied the motion in an order entered on March 13, 2020, stating again that the
motion was denied because the case was closed.
On April 10,2020, Woodberry filed a notice of appeal, purporting to appeal from the orders
entered by the district court on: December 4, 2018, affirming the orders of the bankruptcy court;
January 16, 2019, granting consideration of her second reply brief; and March 13, 2020, denying
her motion for review. By order dated July 8, 2020, we concluded that Woodberry’s notice of
appeal was timely only as to the March 13, 2020, order and partially dismissed the appeal as it
related to the December 4, 2018, and January 16, 2019, orders. Accordingly, only the propriety
of the district court’s March 13, 2020, order denying Woodberry’s “Motion to Review in Total
and Reconcile Conflicting Orders” is at issue in this appeal.
Despite our limitation of the appeal to the March 13, 2020, order, Woodberry’s appellate
brief challenges the December 4, 2018, order affirming the bankruptcy court’s decision. Pertinent
to the limited issues of the appeal, she argues that the district court’s December 4, 2018, order
affirming the orders of the bankruptcy court did not close the appeal, especially considering that
the court subsequently granted her motion to consider her reply brief.
We review the denial of a post-judgment motion for an abuse of discretion. See Holden v.
Atos IT Sols. & Servs., Inc., No. 17-3611, 2018 WL 2972436, at *1 (6th Cir. Apr. 20, 2018); Hunt
v. Michigan, 92 F. App’x 300, 302 (6th Cir. 2004). “A court abuses its discretion when it commits
a clear error of judgment, such as applying the incorrect legal standard, misapplying the correct
legal standard, or relying upon clearly erroneous findings of fact.” United States v. Hammons, 411
F. App’x 837, 843 (6th Cir. 2011).
As explained above, the record establishes that, following the district court’s entry of its
order affirming the orders of the bankruptcy court, Woodberry filed an additional reply brief and
a motion requesting that the district court consider the brief. The district court granted the motion
and indicated to Woodberry that the reply brief had been considered. When Woodberry next filed
a motion for a hearing on the reply brief, the district court denied the motion because the case was
closed. Woodberry moved for reconsideration, stating that it was error for the district court to fail
to set aside its order affirming the bankruptcy court’s orders after it granted her motion for
consideration of her reply brief.

The district court denied the motion for reconsideration,

explaining that the case had been closed and that the additional reply brief that Woodberry filed

(4 of 5)

Case: 20-1404

Document: 21-2

Filed: 04/01/2021

Page: 4

No. 20-1404
-4-

13id not affect the finality of the court’s order affirming the orders of the bankruptcy court.
Undeterred, Woodberry then filed the motion for the district court to “reconcile” its “conflicting
orders,” which the district court again denied on the basis that the case was closed.
The district court did not abuse its discretion when it denied Woodberry’s “Motion to
Review in Total and Reconcile Conflicting Orders.” Even assuming that the case was still active,
the district court’s orders were not conflicting. As the district court plainly informed Woodberry,
although the court considered her additional reply brief, Woodberry’s subsequent filing of a second
reply brief “d[id] not alter the finality of the Court’s December 4, 2018, ruling.” Nor did
Woodberry ever move for the district court to reconsider the order affirming the orders of the
bankruptcy court in light of her additional reply brief—she moved only for the court to consider
the additional reply brief, which it did. Although the district court could have liberally construed
Woodberry’s post-judgment motion as a motion for reconsideration or for relief from its prior
order, it was under no obligation to do so. See Martin v. Overton, 391 F.3d 710, 714 (6th Cir.
2004) (citing Erwin v. Edwards, 22 F. App’x 579, 580 (6th Cir. 2001) (“Liberal construction [of
pro se pleadings] does not require a court to conjure allegations on a litigant’s behalf.”)). And to
the extent that Woodberry argues that the December 4, 2018, order is still appealable because the
district court did not enter a separate judgment, we have already concluded that her notice of appeal
was untimely as to that order.
The order of the district court is AFFIRMED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

Case: 20-1404

Document: 23-2

Filed: 05/07/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-1404
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: CITY OF DETROIT, MI,
Debtor.
EDITH WOODBERRY,
Appellant,
v.

)
)
)
)
)
)
)
)
)
)

FILED

May 07, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

CITY OF DETROIT, MI,
Appellee.

)
)
)

ORDER
Before: MOORE, GIBBONS, and MURPHY, Circuit Judges.
Edith Woodberry, a pro se Michigan resident, has filed a petition for rehearing of this
court’s order of April 1, 2021, affirming the district court’s order denying her motion “to review
in total and reconcile conflicting orders” in connection with an appeal from the United States
Bankruptcy Court.
Upon careful consideration, this panel concludes that it did not misapprehend or overlook
any point of law or fact when it issued its order. Fed. R. App. P. 40(a).
We therefore DENY Woodberry’s petition for rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(2 of 2)

Case 2:18-cv-12308-BAF-RSW ECF No. 27, PagelD.2297 Filed 03/13/20 Page 1 of 1

UNITED-STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
EDITH WOODBERRY,
Appellant,

Civil Action No. 18-CV-12308
HON. BERNARD A. FRIEDMAN

vs.
CITY OF DETROIT,

Bankr. No. 13-53846
HON. THOMAS J. TUCKER

Appellee.
ORDER DENYING APPELLANT’S “MOTION TO REVIEW”
Appellant has filed a motion in this matter [docket entry 26] for the Court “to review
in total and reconcile conflicting orders.” This motion is denied because this case is closed.
SO ORDERED.

Dated: March 13, 2020
Detroit, Michigan

s/Bemard A. Friedman
Bernard A. Friedman
Senior United States District Judge

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served upon counsel of record and any unrepresented
parties via the Court's ECF System to their respective email or First Class U.S. mail addresses disclosed on the
Notice of Electronic Filing on March 13, 2020.
Edith Woodberry
803 Gladstone
Detroit, MI 48202

s/Johnetta M. Currv-Williams
Case Manager

Additional material
from this filing is
available in the
Clerk's Office.

